CERTIFICATION OF SERVICE
The petitioner certifies pursuant to US SC Rule-29 that he served the within Motion for
leave to proceed in forma pauperis and petition for writ of certiorari to the court of appeal for the
Sixth circuit on counsel for the respondent by enclosing a copy thereof in an envelope with postage
prepaid and addressed too:
1.

The Office of the Michigan Attorney General
Appellate Division
PO BOX: 30217
Lansing, Michigan 48909

And too:
2.

The Solicitor General of the United States
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530
By deposing them in the Michigan Department of Corrections Institutional Mailing system

on Auao^' , I L>

, 2021 and further certifies that all parties required to be served have

been served.
DECLARATION OF SERVICE
The petitioner certify under 28
USC 1746 that a copy of this
document was served to all
parties by U.S. Mail.
SUBMITTED BY:
DATE:
MICHAEL DESHON MATTHEWS #281752
IONIA CORRECTIONAL FACILITY
1576 WEST BLUEWATER HIGHWAY
IONIA, MICHIGAN 48846

27

/WivrS^ t ^

3

., 2021

RECEIVED
AUG 2 5 2021
OFFICEjQF THE CLERK
SUPREME COURT. U.S.

SUPREME COURT OF THE UNITED STATES
OFFICE OF THE CLERK
1 FIRST STREET, NE
WASHINGTON, DC 20543
MICHAEL DESHON MATTHEWS #281752
IONIA CORRECTIONAL FACILITY
1576 WEST BLUEWATER HIGHWAY
IONIA, MICHIGAN 48846
RE:

MICHAEL DESHON MATTHEWS v MICHIGAN

Dear Clerk,
Enclosed please find for filing in your court an Original of the following documents:
Motion for Leave to Proceed in Forma Pauperis, with an Affidavit in Support of Forma Pauperis,
A Petition for Writ of Certiorari, Declaration of Service, and Accompanying Appendices. Please
file them for me. Your help in this matter is appreciated.

SUBMITTED BY:
DATE:
MICHAEL DESHON MATTHEWS #281752

/4u(7 it$4'

3

., 2021

IONIA CORRECTIONAL FACILITY
1576 WEST BLUEWATER HIGHWAY
IONIA, MICHIGAN 48846

Cc:

Michigan Attorney General Office

Notice: This document was prepared by a non-attorney Paralegal with the Michigan Department of Corrections.

